4
I

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1428
TAMMY NOERGAARD,
Petitioner,
vs.
CHRISTIAN NOERGAARD,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the JOINT AMICUS CURIAE
BRIEF OF INTERNATIONAL VICTIMS ACTION CENTER AND INTERCEPT ABUSE —
VOICES SET FREE IN SUPPORT OF THE PETITION FOR A WRIT OF CERTIORARI in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3489 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 5th day of May, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

hen atersee, | NOTARY-State of Nebraska Z a Z 1,
RENEE J. GOSS ( Deda .

hen atersee, | Exp. September 5, 2023
Notary Public Affiant

 

40943
